            HEARING BEFORE THE
      COMMITTEE ON WAYS AND MEANS
      U.S. HOUSE OF REPRESENTATIVES

   “IRS TARGETING OF APPLICANTS FOR
          TAX-EXEMPT STATUS”




                  Testimony of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration

                  May 17, 2013

                Washington, D.C.
                                           TESTIMONY
                                               OF
                                    THE HONORABLE J. RUSSELL
                                             GEORGE
                       TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                              before
                                               the
                                  COMMITTEE ON WAYS AND MEANS
                                 U.S. HOUSE OF REPRESENTATIVES

                                                         “The IRS Targeting of Applicants For
                                                                 Tax-Exempt Status”

                                                                    May 17, 2013

        Chairman Camp, Ranking Member Levin, and Members of the Committee,
thank you for the invitation to provide testimony on the subject of the Internal Revenue
Service’s (IRS) processing of certain applications for tax-exempt status. The Treasury
Inspector General for Tax Administration, also known as TIGTA, has provided ongoing
oversight of the IRS’s Tax Exempt and Government Entities Division, Exempt
Organizations’ (EO) customer service and compliance efforts, including those related
to political activities. For example, several reviews have covered the IRS’s political
activities compliance initiative,1 as well as the processing of political action
committees’ returns.2 My testimony today focuses on the results of our most recently
issued report.3 In this report, TIGTA determined whether allegations were founded
that the IRS: 1) targeted specific groups applying for tax-exempt status, 2) delayed
processing targeted groups’ applications for tax-exempt status, and 3) requested
unnecessary information from targeted groups. Our report is included as an
attachment to the testimony, and I will provide highlights of our key findings.

        Organizations, such as Internal Revenue Code (I.R.C.) Section (§) 501(c)(3)4
charities, seeking Federal tax exemption are required to file an application with the


                                                            
1
  TIGTA, Ref. No. 2005-10-035, Review of the Exempt Organizations Function Process for Reviewing
Alleged Political Campaign Intervention By Tax-Exempt Organizations (Feb. 2005);
TIGTA, Ref. No. 2008-10-117, Improvements Have Been Made to Educate Tax-Exempt Organizations and
Enforce the Prohibition Against Political Activities, but Further Improvements Are Possible (June 2008).
2
  TIGTA, Ref. No. 2005-10-125, Additional Actions Are Needed to Ensure Section 527 Political
Organizations Publicly Disclose Their Actions Timely and Completely (Aug. 2005);
TIGTA, Ref. No. 2010-10-018, Improvements Have Been Made, but Additional Actions Could Ensure That
Section 527 Political Organizations More Fully Disclose Financial Information (Feb. 2010).
3
  TIGTA, Ref. No. 2013-10-053, Inappropriate Criteria Were Used to Identify Tax-Exempt Applications for
Review (May 2013).
4
  I.R.C. § 501(c)(3) (2012).
                                                                         1
IRS. Other organizations, such as I.R.C. § 501(c)(4)5 social welfare organizations,6
may file an application but are not required to do so. The IRS’s EO function’s Rulings
and Agreements office, which is based in Washington, D.C., is responsible for
processing applications for tax exemption. Within the Rulings and Agreements office,
the Determinations Unit in Cincinnati, Ohio, is responsible for reviewing applications
as they are received to determine whether the organization qualifies for tax-exempt
status. If the Determinations Unit needs technical assistance7 processing
applications, it may call upon the Technical Unit in Washington, D.C., which is within
the Rulings and Agreements office.

       Most organizations requesting tax-exempt status must submit either a Form
1023, Application for Recognition of Exemption Under Section 501(c)(3) of the
Internal Revenue Code, or Form 1024, Application for Recognition of Exemption
Under Section 501(a),8 depending on the type of tax-exempt organization.

       The I.R.C. section under which an organization is granted tax-exempt status
affects the activities it may undertake. For example, I.R.C. § 501(c)(3) charitable
organizations are prohibited from directly or indirectly participating in or intervening in
any political campaign on behalf of or in opposition to any candidate for public office
(hereinafter referred to as political campaign intervention).9 However, I.R.C. § 501(c)(4)
social welfare organizations, I.R.C. § 501(c)(5)10 agricultural and labor organizations,11
and I.R.C. § 501(c)(6)12 business leagues13 may engage in limited political campaign
intervention.

     The IRS receives thousands of applications for tax-exempt status annually.
Between fiscal years 2009 and 2012, the IRS received approximately 60,000-65,000
                                                            
5
  I.R.C. § 501(c)(4) (2012).
6
  Organizations that promote social welfare primarily promote the common good and general welfare of the
people of the community as a whole, such as a nonprofit organizations providing financial counseling,
youth sports, and public safety.
7
  Assistance such as interpretation of the tax law or guidance on issues that are not covered by clearly
established precedent.
8
  Form 1024 is used by organizations seeking tax-exempt status under a number of other I.R.C. sections,
including I.R.C. § 501(c)(4) social welfare organizations, I.R.C. § 501(c)(5) agricultural and labor
organizations, and I.R.C. § 501(c)(6) business leagues.
9
  Political campaign intervention is the term used in Treasury Regulations §§ 1.501(c)(3)-1, 1.501(c)(4)-1,
1.501(c)(5)-1, and 1.501(c)(6)-1. I.R.C. § 501(c)(3) defines political campaign intervention as directly or
indirectly participating in or intervening in any political campaign on behalf of or in opposition to any
candidate for public office.
10
   I.R.C. § 501(c)(5) (2012).
11
   Agricultural organizations promote the interests of persons engaged in raising livestock or harvesting
crops, and labor organizations include labor unions and collective bargaining associations.
12
   I.R.C. § 501(c)(6) (2012).
13
   Nonprofit organizations such as chambers of commerce, real estate boards, and boards of trade that
promote the improvement of business conditions.
                                                               2
applications for I.R.C. § 501(c)(3) status each year. In addition, receipts for
I.R.C. § 501(c)(4) applications increased between fiscal years 2009 and 2012 from
approximately 1,700 to more than 3,300 annually.

        During the 2012 election cycle, some Members of Congress raised concerns to
the IRS about its selective enforcement efforts and reemphasized its duty to
treat similarly situated organizations consistently. In addition, several organizations
applying for I.R.C. § 501(c)(4) tax-exempt status made allegations that the IRS:
1) targeted specific groups applying for tax-exempt status, 2) delayed the processing of
targeted groups’ applications for tax-exempt status, and 3) requested unnecessary
information from targeted organizations. Lastly, several Members of Congress
requested that the IRS investigate whether existing social welfare organizations are
improperly engaged in a substantial, or even predominant, amount of campaign
activity.14

       We initiated this audit based on concerns expressed by Congress and reported in
the media regarding the IRS’s treatment of organizations applying for tax-exempt status.
We focused our efforts on reviewing the processing of applications for tax-exempt status
and determining whether allegations made against the IRS were founded. Over 600
tax-exempt application case files were reviewed by TIGTA. We did not review whether
specific applications for tax-exempt status should be approved or denied.

Results of Review

        In summary, we found that all three allegations were substantiated. The IRS used
inappropriate criteria that identified for review Tea Party and other organizations applying
for tax-exempt status based upon their names or policy positions instead of indications of
potential political campaign intervention. Because of ineffective management by IRS
officials: 1) inappropriate criteria were developed and stayed in place for a total of more
than 18 months, 2) there were substantial delays in processing certain applications, and
3) unnecessary information requests were issued to the organizations.

Inappropriate Criteria Were Used to Identify Potential Political Cases

        The IRS developed and began using criteria to identify tax-exempt applications
for review by a team of specialists that inappropriately identified specific groups applying
for tax-exempt status based on their names or policy positions, instead of developing


                                                            
14
   A second audit is planned to assess how the EO function monitors I.R.C. §§ 501(c)(4)–(6) organizations
to ensure that political campaign intervention does not constitute their primary activity.
                                                               3
criteria based on tax-exempt laws and Treasury Regulations. The criteria evolved
during 2010.

         In early Calendar Year 2010, according to an IRS Determinations Unit
          specialist, the IRS began searching for applications with “Tea Party,”
          “Patriots,” or “9/12” in the organization’s name as well as other
          “political-sounding” names (hereinafter referred to as potential political cases).

         In May 2010, a Determinations Unit specialist and group manager began
          developing a spreadsheet that would become known as the “Be On the Look
          Out” listing (hereinafter referred to as the “BOLO” listing), which included the
          emerging issue of Tea Party applications.

         In June 2010, Determinations Unit managers and specialists began training
          Determinations Unit specialists on issues to be aware of, including Tea Party
          cases.

         By July 2010, Determinations Unit management stated that it had requested
          its specialists to be on the lookout for Tea Party applications.

       In August 2010, the Determinations Unit distributed the first formal BOLO listing.
The criteria in the BOLO listing were stated as “Tea Party organizations” applying for
I.R.C. § 501(c)(3) or I.R.C. § 501(c)(4) status.

        EO function officials in Washington, D.C. stated that Determinations Unit
specialists interpreted the general criteria in the BOLO listing and developed expanded
criteria for identifying potential political cases. By June 2011, these criteria included:




       The Director, EO, stated that the expanded criteria were a compilation of various
Determinations Unit specialists’ responses on how they were identifying Tea Party
cases. We asked the Acting Commissioner, Tax Exempt and Government Entities
Division; the Director, EO; and Determinations Unit personnel if the criteria were
influenced by any individual or organization outside the IRS. All of these officials stated
that the criteria were not influenced by any individual or organization outside the IRS.
Instead, the Determinations Unit developed and implemented inappropriate criteria due
to insufficient oversight provided by management and other human capital challenges.
                                            4
Specifically, first-line management in Cincinnati, Ohio approved references to the Tea
Party in the BOLO listing criteria. As a result, inappropriate criteria remained in place
for more than 18 months.15 Determinations Unit managers and employees also did not
consider the public perception of using these criteria when identifying these cases.
Moreover, the criteria developed showed that the Determinations Unit specialists lacked
knowledge of what activities are allowed by I.R.C. § 501(c)(3) and I.R.C. § 501(c)(4)
organizations.

       However, developing and using criteria that focus on organization names and
policy positions instead of the activities permitted under the Treasury Regulations does
not promote public confidence that tax-exempt laws are being applied impartially. The
IRS’s actions regarding the use of inappropriate criteria over such an extended period of
time has brought into question whether the IRS has treated all taxpayers fairly, which is
an essential part of its mission statement.16

      After being briefed on the expanded criteria in June 2011, the Director, EO,
immediately directed that the criteria be changed. In July 2011, the criteria were
changed to focus on the potential “political, lobbying, or advocacy” activities of the
organization and references to these cases were changed from “Tea Party cases” to
“advocacy cases.” These criteria were an improvement over using organization names
and policy positions because they were more consistent with tax-exempt laws and
Treasury Regulations.

        However, the team of Determinations Unit specialists subsequently changed the
criteria in January 2012 without senior IRS official approval because they believed the
July 2011 criteria were too broad. The January 2012 criteria again focused on the
policy positions of organizations, instead of tax-exempt laws and Treasury Regulations.
After three months, the Director, Rulings and Agreements, in Washington, D.C. learned
the criteria had been changed by the team of specialists and subsequently revised the
criteria again in May 2012. The May 2012 criteria more clearly focus on activities
permitted under the Treasury Regulations. We are not aware of any additional changes
to the criteria during our audit. We are continuing to look into whether any violations of




                                                            
15
   The 18 months were not consecutive. There were two different time periods when the criteria were
inappropriate (May 2010 to July 2011 and January 2012 to May 2012).
16
   The IRS’s mission is to provide America’s taxpayers top-quality service by helping them understand and
meet their tax responsibilities and enforce the law with integrity and fairness to all.
                                                               5
the Internal Revenue Service Restructuring and Reform Act of 199817 (RRA 98) have
occurred and if any political influence caused the change in criteria.18

Potential Political Cases Experienced Significant Processing Delays

       The organizations that applied for tax-exempt status and that had their
applications forwarded to the team of specialists for additional review experienced
substantial delays. As of December 17, 2012, many organizations had not received an
approval or denial letter for more than two years after they submitted their applications.
Some cases have been open during two election cycles (2010 and 2012).

       Potential political cases took significantly longer than average to process due to
ineffective management oversight. Once cases were initially identified for processing by
the team of specialists in February 2010, the Determinations Unit Program Manager
requested assistance via e-mail from the Technical Unit to ensure consistency in
processing the cases. However, the Determinations Unit waited more than 20 months
(February 2010 to November 2011) to receive draft written guidance from the Technical
Unit for processing potential political cases.

        The team of specialists stopped working on potential political cases from
October 2010 through November 2011, resulting in a 13-month delay, while they waited
for assistance from the Technical Unit. Many organizations waited much longer than 13
months for a decision while others have yet to receive a decision from the IRS. For
example, as of December 17, 2012, the IRS had been processing several potential
political cases for more than 1,000 calendar days (approximately 3 years). Some of
these organizations received requests for additional information in Calendar Year 2010
and then did not hear from the IRS again for more than a year while the Determinations
Unit waited for assistance from the Technical Unit. For the 296 potential political cases
we reviewed, as of December 17, 2012, 108 applications had been approved, 28 were
withdrawn by the applicant, none had been denied, and 160 cases were open from
206 to 1,138 calendar days (some crossing two election cycles).




                                                            
17
   Pub. L. No. 105-206, 112 Stat. 685. 1998 (codified as amended in scattered sections of 2 U.S.C.,
5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
18
   It is a violation of RRA 98 § 1203(b)(3) for IRS employees to falsify or destroy documents to conceal
mistakes made by any employee with respect to a matter involving a taxpayer or taxpayer representative
and a violation of RRA 98 § 1203(b)(6) for IRS employees to violate the Internal Revenue Code, Treasury
Regulations, or policies of the IRS for purposes of retaliating against or harassing a taxpayer. Proven
violations of Section 1203 require the termination of the offending IRS employee.
                                                               6
The IRS Requested Unnecessary Information for Many Potential Political Cases

        After receiving draft guidance in November 2011 from the Technical Unit on
processing potential political cases, a different team of specialists in the Determinations
Unit began sending requests for additional information in January 2012 to organizations
that were applying for tax-exempt status. For some organizations, this was the second
letter received from the IRS requesting additional information, the first of which had been
received more than a year before this date. These letters requested that the information
be provided in two or three weeks (as is customary in these letters) despite the fact that
the IRS had done nothing with some of the applications for more than one year. After
the letters were received, organizations seeking tax-exempt status, as well as Members
of Congress, expressed concerns about the type and extent of questions being asked.

        After this media attention, the Director, EO, stopped issuance of additional
information request letters and provided an extension of time to respond to previously
issued letters. EO function headquarters Washington, D.C. office employees reviewed
the additional information request letters prepared by the team of specialists and
identified seven questions that they deemed unnecessary, including requests for donor
information, position on issues, and whether officers have run for public office.
Subsequently, the EO function instituted the practice that all additional information
request letters for potential political cases be reviewed by the EO function headquarters
office before they are sent to organizations seeking tax-exempt status. In addition, EO
function officials informed us that they decided to destroy all donor lists that had been
sent in for potential political cases which the IRS determined it should not have
requested.

        The Determinations Unit requested unnecessary information because of a lack of
managerial review, at all levels, of these information requests before they were sent to
organizations seeking tax-exempt status. Additionally, as mentioned earlier, we
concluded that Determinations Unit specialists lacked knowledge of what activities are
allowed by I.R.C. § 501(c)(3) and I.R.C. § 501(c)(4) tax-exempt organizations. In May
2012, a two-day workshop was provided to the team of specialists to train them on what
activities are allowable by I.R.C. § 501(c)(4) organizations, including lobbying and
political campaign intervention.

IRS’s Response to Our Recommendations

       TIGTA made nine recommendations to provide more assurance that applications
are processed in a fair and impartial manner in the future without unreasonable delay.
The IRS agreed to seven of our nine recommendations and proposed alternative

                                            7
corrective actions for two of our recommendations. However, we do not agree that the
alternative corrective actions will accomplish the intent of the recommendations. One of
these recommendations was that the IRS should clearly document the reason
applications are chosen for further review for potential political campaign intervention.
The second was that the IRS should develop specific guidance for specialists processing
potential political cases and publish the guidance on the Internet. Further, the IRS’s
response also states that issues discussed in the report have been resolved. We
disagree with this assertion. Until all of our recommendations are fully implemented and
the numerous applications that were open as of December 2012 are closed, we do not
consider the concerns in this report to be resolved. In addition, as part of our mission,
TIGTA will also determine whether any criminal activity or administrative misconduct
occurred during this process. The attached TIGTA report includes additional information
on all nine recommendations and the IRS’s planned corrective actions and completion
dates.

        We at TIGTA are committed to delivering our mission of ensuring an effective and
efficient tax administration system and preventing, detecting, and deterring waste, fraud,
and abuse. As such, we plan to provide continuing audit and investigative coverage of
the IRS’s efforts to administer the tax-exempt laws.

       Chairman Camp, Ranking Member Levin, and Members of the Committee, thank
you for the opportunity to update you on our work on this tax administration issue and to
share my views.




                                            8
                         J. Russell George
                         Treasury Inspector General for Tax
                         Administration
                         Following his nomination by President George W. Bush, the
                         United States Senate confirmed J. Russell George in
                         November 2004, as the Treasury Inspector General for Tax
                         Administration. Prior to assuming this role, Mr. George served
                         as the Inspector General of the Corporation for National and
                         Community Service, having been nominated to that position by
                         President Bush and confirmed by the Senate in 2002.

A native of New York City, where he attended public schools, including Brooklyn
Technical High School, Mr. George received his Bachelor of Arts degree from Howard
University in Washington, D.C., and his Doctorate of Jurisprudence from Harvard
University's School of Law in Cambridge, MA. After receiving his law degree, he
returned to New York and served as a prosecutor in the Queens County District
Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.




                                           9
In addition to his duties as the Inspector General for Tax Administration, Mr. George
serves as a member of the Recovery Accountability and Transparency Board, a non-
partisan, non-political agency created by the American Recovery and Reinvestment Act
of 2009 to provide unprecedented transparency and to detect and prevent fraud, waste,
and mismanagement of Recovery funds. There, he serves as chairman of the
Recovery.gov committee, which oversees the dissemination of accurate and timely data
about Recovery funds.

Mr. George also serves as a member of the Integrity Committee of the Council of
Inspectors General for Integrity and Efficiency (CIGIE). CIGIE is an independent entity
within the executive branch statutorily established by the Inspector General Act, as
amended, to address integrity, economy, and effectiveness issues that transcend
individual Government agencies; and increase the professionalism and effectiveness of
personnel by developing policies, standards, and approaches to aid in the
establishment of a well-trained and highly skilled workforce in the offices of the
Inspectors General. The CIGIE Integrity committee serves as an independent review
and investigative mechanism for allegations of wrongdoing brought against Inspectors
General.




                                          10
